b7c, b6
b7c, b6
          b7c, b6               b7c, b6
                              b7c, b6



                    b7c, b6
b7c, b6
b7c, b6
                         b7c, b6

b7c, b6

          b7c, b6


               b7c, b6
          b7c, b6
                              b7c, b6             b7c, b6


                          b7c, b6
                                        b7c, b6
                                                       b7c, b6   b7c, b6




b7c, b6             b7c, b6
                    b7c, b6

b7c, b6                       b7c, b6

b7c, b6




          b7c, b6
                      b7c, b6


                                            b7c, b6


                                                                b7c, b6




            b7c, b6                               b7c, b6
                                                            b7c, b6                 b7c, b6


  b7c, b6              b7c, b6
b7c, b6
 b7c, b6                         b7c, b6                                  b7c, b6




                                 b7c, b6


                                       b7c, b6
b7c, b6




                    b7c, b6




          b7c, b6
b7c, b6
          b7c, b6


b7c, b6
          b7c, b6




                    b7c, b6               b7c, b6
b7c, b6                        b7c, b6


                                b7c, b6


          b7c, b6
                              b7c, b6      b7c, b6

              b7c, b6
          b7c, b6
b7c, b6
               b7c, b6
                  b7c, b6              b7c, b6
                         b7c, b6                b7c, b6
                                                                          b7c, b6
                                                                    b7c, b6
                                                                                         b7c, b6

     b7c, b6
                            b7c, b6
                                                 b7c, b6                             b7c, b6
                                                              b7c, b6
                                                          b7c, b6

  b7c, b6
                                      b7c, b6
b7c, b6                                                                        b7c, b6
                 b7c, b6                        b7c, b6   b7c, b6


b7c, b6                  b7c, b6


              b7c, b6
               b7c, b6                b7c, b6
          b7c, b6
b7c, b6                  b7c, b6


               b7c, b6             b7c, b6
b7c, b6             b7c, b6
b7c, b6                  b7c, b6
    b7c, b6
b7c, b6
          b7c, b6   b7c, b6
                              b7c, b6
          b7c, b6
                       b7c, b6        b7c, b6
                    b7c, b6                  b7c, b6
                                     b7c, b6             b7c, b6


                      b7c, b6    b7c, b6




                                               b7c, b6




                    b7c, b6


b7c, b6
   b7c, b6




b7c, b6
                       b7c, b6   b7c, b6
             b7c, b6              b7c, b6
          b7c, b6


          b7c, b6                b7c, b6
b7c, b6                          b7c, b6
                       b7c, b6
                    b7c, b6




          b7c, b6
                                   b7c, b6   b7c, b6
                    b7c, b6   b7c, b6

b7c, b6   b7c, b6
   b7c, b6



                                                               b7c, b6
                                                           b7c, b6
                                       b7c, b6




                             b7c, b6
                        b7c, b6
                                                                                     b7c, b6
                                                 b7c, b6



    b7c, b6
b7c, b6
              b7c, b6
    b7c, b6                            b7c, b6




             b7c, b6
                   b7c, b6




                                                                           b7c, b6
b7c, b6


                                           b7c, b6




                                                                b7c, b6   b7c, b6         b7c, b6
    b7c, b6
                                                                             b7c, b6
b7c, b6
b7c, b6
b7c, b6
                                b7c, b6                               b7c, b6
                                                          b7c, b6


                                                                                                 b7c, b6
b7c, b6                                                                                b7c, b6

b7c, b6                                       b7c, b6          b7c, b6


              b7c, b6                           b7c, b6             b7c, b6

                      b7c, b6             b7c, b6                                               b7c, b6
                                                                                                b7c, b6

b7c, b6             b7c, b6                          b7c, b6



                                          b7c, b6                                          b7c, b6

          b7c, b6                                                                                          b7c, b6
                                                                       b7c, b6                              b7c, b6

                          b7c, b6                                                b7c, b6

b7c, b6                                                                                    b7c, b6
                                                                                             b7c, b6

b7c, b6         b7c, b6
                     b7c, b6

                                          b7c, b6

b7c, b6        b7c, b6              b7c, b6
                                                                                      b7c, b6
                                                    b7c, b6 b7c, b6



                                          b7c, b6                                    b7c, b6


              b7c, b6                                     b7c, b6
                                                                                                       b7c, b6




                                                        b7c, b6     b7c, b6
                                               b7c, b6
                                b7c, b6
b7c, b6


                                                                                                 b7c, b6
b7c, b6




          b7c, b6
          b7c, b6


b7c, b6         b7c, b6




          b7c, b6
                    b7c, b6




               b7c, b6




          b7c, b6                       b7c, b6
b7c, b6




                              b7c, b6
b7c, b6


b7c, b6


b7c, b6


b7c, b6
